APPENDIX

APPENDIX
Decision of the Court of Appeals for the Eleventh Circuit,
United States v. Carlos Miguel Perez,
815 Fed. Appx. 410 (11th Cir. June 1, 2020) ............................................................ A-1
Judgment imposing sentence .................................................................................... A-2
Excerpt of Trial Transcript, Volume 1 (July 23, 2018) ............................................ A-3
Jury Instructions ....................................................................................................... A-4
Indictment .................................................................................................................. A-5

A-1

United States v. Perez, 815 Fed.Appx. 410 (2020)

815 Fed.Appx. 410
This case was not selected for publication in West’s
Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1 generally
governing citation of judicial decisions issued on or
after Jan. 1, 2007. See also U.S. Ct. of App. 11th Cir.
Rule 36-2.
United States Court of Appeals, Eleventh Circuit.
UNITED STATES of America, Plaintiff-Appellee,
v.
Carlos Miguel PEREZ, Defendant-Appellant.
No. 18-14388
|
Non-Argument Calendar
|
(June 1, 2020)

Synopsis
Background: Defendant was convicted in the United
States District Court for the Southern District of Florida,
No. 1:18-cr-20359-RNS-1, Robert N. Scola, J., of being a
felon in possession of a firearm and possession of a
firearm in furtherance of a drug trafficking crime.
772
Defendant appealed. The Court of Appeals,
F.Appx. 791, affirmed. Certiorari was granted. The
United States Supreme Court, 140 S.Ct. 397, vacated and
remanded.

[Holding:] The Court of Appeals held that failure to
allege that defendant had the knowing mens rea of his
status as a felon or to instruct jury to find and government
to prove he knew he was a felon was not reversible error.
Affirmed.
Procedural Posture(s): Appellate Review.

Plain error that occurred when indictment
charging defendant with being a felon in
possession of firearm failed to allege that
defendant had the knowing mens rea of his
status as a felon or when jury was not instructed
to find and government was not required to
prove that he knew he was a felon when he
possessed the firearm did not affect his
substantial rights or fairness, integrity, or public
reputation of his trial, and thus, did not warrant
reversal of his conviction; a post-arrest
recording of defendant’s telephone call he
admitted that immediately before his arrest he
hid the firearm from the police demonstrating he
knew he was prohibited from possessing it, and
defendant had an extensive criminal history
which included five prior felony convictions.
18 U.S.C.A. § 922(g)(1).

Attorneys and Law Firms
Phillip Drew DiRosa, U.S. Attorney’s Office, Fort
Lauderdale, FL, Lisa A. Hirsch, Emily M. Smachetti, U.S.
Attorney Service - Southern District of Florida, U.S.
Attorney Service - SFL, Miami, FL, for Plaintiff Appellee
Margaret Y. Foldes, Federal Public Defender’s Office,
Fort Lauderdale, FL, Anthony John Natale, Michael
Caruso, Federal Public Defender, Federal Public
Defender’s Office, Miami, FL, for Defendant - Appellant
Appeal from the United States District Court for the
Southern District of Florida, D.C. Docket No.
1:18-cr-20359-RNS-1
Before JORDAN, TJOFLAT and MARCUS, Circuit
Judges.

West Headnotes (1)

[1]

Criminal Law
accusation
Criminal Law

Requisites and sufficiency of
Failure to instruct in general

ON REMAND FROM THE UNITED STATES
SUPREME COURT

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Perez, 815 Fed.Appx. 410 (2020)

PER CURIAM:

941 F.3d 1018, 1021 (11th Cir. 2019).
1

*411 Carlos Perez has appealed from his conviction, by
jury, for being a felon in possession of a firearm under
18 U.S.C. § 922(g)(1) and possession of a firearm in
furtherance of a drug trafficking crime under
18 U.S.C.
§ 924(c)(1)(A)(i). In his initial appeal to this Court, we
rejected Perez’s claims that: (1) the government had
failed to prove, beyond a reasonable doubt, that he
knowingly possessed a firearm and that the firearm was
possessed in furtherance of a drug trafficking crime; and
(2) the district court had erroneously counted Perez as a
career offender under the Sentencing Guidelines.
United States v. Perez, 772 F. App’x 791, 792 (2019).
Thereafter, the Supreme Court vacated and remanded this
Rehaif v.
case to us for further consideration in light of
United States, ––– U.S. ––––, 139 S. Ct. 2191, 204
L.Ed.2d 594 (2019), which held that a defendant must
have a knowing mens rea of his status as a felon to be
convicted of knowingly possessing a firearm after a
felony conviction. On remand, Perez argues that, in light
Rehaif, he was wrongfully convicted because his
of
indictment failed to allege, his jury was not instructed to
find, and the government was not required to prove that
he knew he was a felon when he possessed the firearm.
After careful review of the entire record, including the
supplemental briefs we requested of the parties on remand,
we affirm.
We review for plain error Perez’s new challenges to his
United States v. Sperrazza, 804 F.3d 1113,
indictment,
1118–19 (11th Cir. 2015), the jury instructions, United
States v. Joseph, 709 F.3d 1082, 1093 (11th Cir. 2013),
and the sufficiency of the evidence,
United States v.
Baston, 818 F.3d 651, 664 (11th Cir. 2016).1 To establish
plain error, Perez must show (1) an error, (2) that is plain,
United
and (3) that affected his substantial rights.
States v. Turner, 474 F.3d 1265, 1276 (11th Cir. 2007). If
Perez satisfies these conditions, we may exercise our
discretion to recognize the error only if it seriously affects
the fairness, integrity, or public reputation of judicial
Id. To show the error affected Perez’s
proceedings.
substantial rights, he must show a reasonable probability
that without the error the outcome of the proceeding *412
Molina-Martinez v. United
would have been different.
States, ––– U.S. ––––, 136 S. Ct. 1338, 1343, 194 L.Ed.2d
444 (2016). We may consult the whole record when
considering the effect of any error on Perez’s substantial
rights, and Federal Rule of Criminal Procedure 52(b)
“authorizes the Courts of Appeals to correct only
United States v. Reed,
particularly egregious errors.”

Before

In district court and in his initial direct appeal to
this Court, Perez never made any of the
Rehaif
claims he now raises -- that is, he never objected
to or otherwise challenged the sufficiency of the
indictment, the elements of the jury instructions,
nor the sufficiency of the evidence to show that he
did not know that he was prohibited from
possessing a firearm, nor did he ever argue that he
did not know that he was prohibited from
possessing a firearm. Thus, we review these
claims on remand for plain error review, just as
our Court did in
United States v. Reed, 941
F.3d 1018, 1020 (11th Cir. 2019). As for Perez’s
claim that de novo review should govern because
the claim was not “reasonably available” before
Rehaif issued, we disagree. Among other
things, the Supreme Court granted certiorari in
Rehaif a full two weeks before Perez filed his
initial brief. As for the government’s argument
that Perez abandoned these claims on remand, we
need not resolve this issue because even when we
review them under plain error review, they fail.

Rehaif v. United States, a conviction under

18 U.S.C. § 922(g)(1) required proof that: (1) the
defendant knowingly possessed a firearm or ammunition;
(2) the defendant was previously convicted of an offense
punishable by a term of imprisonment over one year; and
(3) the firearm or ammunition affected interstate
United States v. Palma, 511 F.3d 1311,
commerce.
1315 (11th Cir. 2008).
Rehaif v. United States, the Supreme Court
In
reversed a defendant’s conviction after a jury trial under
§ 922(g)(5)(A), which prohibits possession of a
firearm by an unlawful alien, because the district court
instructed the jury that it did not need to find that he knew
––– U.S. ––––, 139
he was in the country unlawfully.
S. Ct. 2191, 2195, 204 L.Ed.2d 594 (2019). The Supreme
18
Court held that in prosecuting an individual under
924(a)(2), the government must
U.S.C. §§ 922(g) and
prove that he knew of his status as a person prohibited
Id.
from possessing a firearm at the time of possession.
at 2200. The Supreme Court gave examples of defendants
who might not know of their status, including “a person
who was convicted of a prior crime but sentenced only to
probation, who does not know that the crime is punishable

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Perez, 815 Fed.Appx. 410 (2020)

by imprisonment for a term exceeding one year.”
Id. at
2198 (quotations and emphasis omitted). The Supreme
Court did not express what exactly the government must
prove to establish knowledge of status concerning other
§ 922(g) provisions that were not at issue.
Id. at
2200. The Supreme Court also expressed doubt that
proving this element would be burdensome for the
government, noting that circumstantial evidence could be
Id. at 2198.
used to infer knowledge.
Reed, the defendant was convicted after a jury trial
In
of possessing a firearm as a felon under
§ 922(g)(1),
and we affirmed his conviction on appeal.
941 F.3d at
1019-20. We then reconsidered the appeal after remand
from the United States Supreme Court in light of
Rehaif.
Id. at 1019. We acknowledged that the
failure of the indictment to allege that he had knowledge
of his status, the fact that the government was not
required to prove his knowledge, and the lack of an
instruction that the jury was required to find that he had
Rehaif.
such knowledge were indeed plain errors under
Id. at 1021.
But, considering the record as a whole, we concluded that
Reed could not show a reasonable probability that the
outcome of his trial would have been different had the
Id. Specifically,
knowledge requirement been included.
we noted that: (1) Reed had been convicted of eight
felonies in state court at the time of his arrest for firearm
possession; (2) he stipulated prior to trial that he had
previously been convicted of a felony and had never had
his right to possess a firearm restored; (3) he
acknowledged during his trial testimony that he knew he
was not supposed to have a gun; and (4) the presentence
investigation report stated that he had been incarcerated
for eighteen years prior to the firearm possession, which
Id. at 1020-22. We held
the defendant did not dispute.
that because the record established that Reed knew he was
a felon, he failed to show that the errors affected his
substantial rights or the fairness, integrity, or public
Id. at 1022.
reputation of his trial.
Reed, Perez has not satisfied the
*413 Here, just as in
plain error test. For starters, we recognize that plain error
Rehaif
arose when the indictment did not allege the
element, when the jury was not required to find it beyond
a reasonable doubt, and when the government was not
Id.
required to prove that Perez knew he was a felon.
at 1021. Nevertheless, Perez cannot show a reasonable
probability that the outcome of his trial would have been

different had these errors not occurred.

Id.

As the record reveals, there was more than enough
evidence adduced at trial to establish that Perez knew he
was a felon -- an element the Supreme Court has
Rehaif,
acknowledged is not burdensome to prove.
139 S. Ct. at 2198. This evidence included a post-arrest
recording of one of Perez’s jailhouse telephone calls,
during which he admitted that immediately before his
arrest in this case, he had hidden the firearm from the
police. In the call, Perez declared that “when I saw [the
police] I ran into the other room next to the refrigerator
and [I] got rid of that shit.” Next to the refrigerator, law
enforcement found the firearm. Thus, the jury reasonably
was entitled to infer from Perez’s conduct in hiding the
firearm that he knew that he was prohibited from
possessing it because he was a convicted felon. See
Reed, 941 F.3d at 1022 (emphasizing that they jury
could have inferred that the defendant knew he was a
felon from his testimony that he knew he was not
supposed to have a gun).
Nor can we say that the errors seriously affected the
fairness, integrity, or public reputation of judicial
proceedings, especially since other evidence in the record
shows that Perez knew that he was a convicted felon at
the time he possessed the firearm. As set forth in the
presentence investigation report (“PSI”), Perez had an
extensive criminal history. He was a career offender who
had five prior felony convictions, all of which occurred
before he possessed the firearm in this case. In fact, the
evidence at trial included a certified copy of a 2013
Florida conviction for the sale, manufacture, delivery, or
possession with intent to sell, manufacture, or deliver
cocaine. Perez had placed his fingerprints on the
conviction, and under the heading for the degree of the
crime was the notation “2F,” which Perez was likely to
have known, based on his criminal history, signified that
the crime was a felony of the second degree. Perez also
had dozens of prior arrests for traffic offenses,
misdemeanor offenses, and felony offenses. In view of his
conduct during his arrest and his extensive criminal
record, we have little doubt, if any, that Perez knew that
he had been convicted of at least one felony offense
before he possessed the firearm in this case.
In short, Perez has not demonstrated that his substantial
rights were prejudiced, nor that the fairness, integrity, or
public reputation of judicial proceedings were seriously
Reed, 941
affected by any of the purported errors. See
F.3d at 1021-22. Perez simply has not satisfied the plain
error test.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Perez, 815 Fed.Appx. 410 (2020)

Finally, as for Perez’s argument that the omission in the
indictment of the knowledge element was a jurisdictional
defect, we’ve recently rejected this argument. United
States v. Moore, 954 F.3d 1322, 1337 (11th Cir. 2020).
“Under the prior panel precedent rule, we are bound to
follow a prior binding precedent unless and until it is
overruled by this court en banc or the Supreme Court.”
United States v. Vega–Castillo, 540 F.3d 1235, 1236
(11th Cir. 2008) (quotations omitted).
End of Document

AFFIRMED.
All Citations
815 Fed.Appx. 410

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

A-2

Case 1:18-cr-20359-RNS Document 65 Entered on FLSD Docket 10/11/2018 Page 1 of 7
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 1 of 7

UNITED STATES DISTRICT COURT
Southern District of Florida
Miami Division

UNITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE
Case Number: 18-20359-CR-SCOLA

v.
CARLOS MIGUEL PEREZ

USM Number: 18674-104
Counsel For Defendant: AFPD Anthony J. Natale
Counsel For The United States: AUSA Joshua S. Rothstein
Court Reporter: Diane Peede

The defendant was found guilty on counts 1 through 5 of the indictment.
The defendant is adjudicated guilty of these offenses:
TITLE & SECTION

NATURE OF OFFENSE

21 U.S.C. § 846

Conspiracy to possess with intent to distribute 28
grams or more of cocaine base.

21 U.S.C. § 841(a)(1)

Possession with intent to distribute 28 grams or more
of cocaine base.

OFFENSE
ENDED
02/01/2018

COUNT
1

03/01/2018

2

18 U.S.C. § 924(c)(1)(A)(i) Possession of a firearm in furtherance of a drug
trafficking crime.

03/01/2018

3

21 U.S.C. § 856(a)(1)
18 U.S.C. § 922(g)(1)

02/01/2018
03/01/2018

4
5

Maintaining a drug-involved premises.
Possession of a firearm and ammunition by a
convicted felon.

The defendant is sentenced as provided in the following pages of this judgment. The sentence is imposed
pursuant to the Sentencing Reform Act of 1984.
It is ordered that the defendant must notify the United States attorney for this district within 30 days of any
change of name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed
by this judgment are fully paid. If ordered to pay restitution, the defendant must notify the court and United States
attorney of material changes in economic circumstances.

Case 1:18-cr-20359-RNS Document 65 Entered on FLSD Docket 10/11/2018 Page 2 of 7
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 2 of 7

DEFENDANT: CARLOS MIGUEL PEREZ
CASE NUMBER: 18-20359-CR-SCOLA
Date of Imposition of Sentence: 10/10/2018

____________________________________
ROBERT N. SCOLA, Jr.
United States District Judge

Date: 10/10/2018

Case 1:18-cr-20359-RNS Document 65 Entered on FLSD Docket 10/11/2018 Page 3 of 7
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 3 of 7

DEFENDANT: CARLOS MIGUEL PEREZ
CASE NUMBER: 18-20359-CR-SCOLA
IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a
total term of 180 months. The sentence consists of 120 months as to each of Counts 1, 2, 4, and 5, all to be
served concurrently with each other; and a consecutive term of 60 months as to Count 3.
The court makes the following recommendations to the Bureau of Prisons: (a) defendant be allowed to participate
in a 500-hour Residential Drug Abuse Program (RDAP), and (b) defendant receive vocational training while in
custody so he can have a trade when released from custody. If the Bureau of Prisons is able to offer the RDAP
and vocational training in a South Florida facility, then the Court further recommends that he be designated to a
facility in the South Florida area, otherwise the Court recommends the drug and vocational training are more
important than the South Florida recommendation.
The defendant is remanded to the custody of the United States Marshal.
RETURN
I have executed this judgment as follows:

Defendant delivered on ________________________________________ to ________________________________________
at ________________________________________, with a certified copy of this judgment.

___________________________________________
UNITED STATES MARSHAL

___________________________________________
DEPUTY UNITED STATES MARSHAL

Case 1:18-cr-20359-RNS Document 65 Entered on FLSD Docket 10/11/2018 Page 4 of 7
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 4 of 7

DEFENDANT: CARLOS MIGUEL PEREZ
CASE NUMBER: 18-20359-CR-SCOLA
SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of five years. This term consists of
five years as to each of Counts 1, 2, and 3 and three years as to each of Counts 4 and 5, all such terms to run concurrently.
The defendant must report to the probation office in the district to which the defendant is released within 72 hours of release
from the custody of the Bureau of Prisons.
The defendant shall not commit another federal, state or local crime.
The defendant shall not unlawfully possess a controlled substance. The defendant shall refrain from any unlawful use of a
controlled substance. The defendant shall submit to one drug test within 15 days of release from imprisonment and at least
two periodic drug tests thereafter, as determined by the court.
The defendant shall cooperate in the collection of DNA as directed by the probation officer.
The defendant shall not possess a firearm, ammunition, destructive device, or any other dangerous weapon.
If this judgment imposes a fine or restitution, it is a condition of supervised release that the defendant pay in accordance
with the Schedule of Payments sheet of this judgment.
The defendant must comply with the standard conditions that have been adopted by this court as well as with any additional
conditions on the attached page.

STANDARD CONDITIONS OF SUPERVISION
1. The defendant shall not leave the judicial district without the permission of the court or probation officer;
2. The defendant shall report to the probation officer and shall submit a truthful and complete written report within the first fifteen
days of each month;
3. The defendant shall answer truthfully all inquiries by the probation officer and follow the instructions of the probation officer;
4. The defendant shall support his or her dependents and meet other family responsibilities;
5. The defendant shall work regularly at a lawful occupation, unless excused by the probation officer for schooling, training, or
other acceptable reasons;
6. The defendant shall notify the probation officer at least ten days prior to any change in residence or employment;
7. The defendant shall refrain from excessive use of alcohol and shall not purchase, possess, use, distribute, or administer any
controlled substance or any paraphernalia related to any controlled substances, except as prescribed by a physician;
8. The defendant shall not frequent places where controlled substances are illegally sold, used, distributed, or administered;
9. The defendant shall not associate with any persons engaged in criminal activity and shall not associate with any person convicted
of a felony, unless granted permission to do so by the probation officer;
10.The defendant shall permit a probation officer to visit him or her at any time at home or elsewhere and shall permit confiscation
of any contraband observed in plain view of the probation officer;
11.The defendant shall notify the probation officer within seventy-two hours of being arrested or questioned by a law enforcement
officer;
12.The defendant shall not enter into any agreement to act as an informer or a special agent of a law enforcement agency without the
permission of the court; and
13.As directed by the probation officer, the defendant shall notify third parties of risks that may be occasioned by the defendant’s
criminal record or personal history or characteristics and shall permit the probation officer to make such notifications and to
confirm the defendant’s compliance with such notification requirement.

Case 1:18-cr-20359-RNS Document 65 Entered on FLSD Docket 10/11/2018 Page 5 of 7
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 5 of 7

DEFENDANT: CARLOS MIGUEL PEREZ
CASE NUMBER: 18-20359-CR-SCOLA
SPECIAL CONDITIONS OF SUPERVISION
Permissible Search - The defendant shall submit to a search of his/her person or property conducted in a
reasonable manner and at a reasonable time by the U.S. Probation Officer.
Substance Abuse Treatment - The defendant shall participate in an approved treatment program for drug and/or
alcohol abuse and abide by all supplemental conditions of treatment. Participation may include
inpatient/outpatient treatment. The defendant will contribute to the costs of services rendered (co-payment) based
on ability to pay or availability of third party payment.
Unpaid Restitution, Fines, or Special Assessments - If the defendant has any unpaid amount of restitution, fines,
or special assessments, the defendant shall notify the probation officer of any material change in the defendant’s
economic circumstances that might affect the defendant’s ability to pay.

Case 1:18-cr-20359-RNS Document 65 Entered on FLSD Docket 10/11/2018 Page 6 of 7
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 6 of 7

DEFENDANT: CARLOS MIGUEL PEREZ
CASE NUMBER: 18-20359-CR-SCOLA
CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
TOTALS

Assessment
$500.00

Fine
$0.00

Restitution
$0.00

If the defendant makes a partial payment, each payee shall receive an approximately proportioned
payment, unless specified otherwise in the priority order or percentage payment column below. However,
pursuant to 18 U.S.C. § 3664(i), all nonfederal victims must be paid before the United States is paid.
NAME OF PAYEE

TOTAL
LOSS*

RESTITUTION
ORDERED

PRIORITY OR
PERCENTAGE

* Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for
offenses committed on or after September 13, 1994, but before April 23, 1996.
**Assessment due immediately unless otherwise ordered by the Court.

Case 1:18-cr-20359-RNS Document 65 Entered on FLSD Docket 10/11/2018 Page 7 of 7
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 7 of 7

DEFENDANT: CARLOS MIGUEL PEREZ
CASE NUMBER: 18-20359-CR-SCOLA
SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as
follows:
A. Lump sum payment of $500.00 due immediately.
Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal
monetary penalties is due during imprisonment. All criminal monetary penalties, except those payments made
through the Federal Bureau of Prisons’ Inmate Financial Responsibility Program, are made to the clerk of the
court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties
imposed.
This assessment/fine/restitution is payable to the CLERK, UNITED STATES COURTS and is to be addressed to:
U.S. CLERK'S OFFICE
ATTN: FINANCIAL SECTION
400 NORTH MIAMI AVENUE, ROOM 08N09
MIAMI, FLORIDA 33128-7716
The assessment/fine/restitution is payable immediately. The U.S. Bureau of Prisons, U.S. Probation Office and
the U.S. Attorney's Office are responsible for the enforcement of this order.
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and
Several Amount, and corresponding payee, if appropriate.
CASE NUMBER
DEFENDANT AND CO-DEFENDANT NAMES
(INCLUDING DEFENDANT NUMBER)

TOTAL AMOUNT

JOINT AND SEVERAL
AMOUNT

The Government shall file a preliminary order of forfeiture within 3 days.
The defendant shall forfeit the defendant’s interest in the following property to the United States:
a) $3,633.50 in U.S. currency;
b) one Glock 19, 9mm, semi-automatic pistol (serial no. WCP530) and ten rounds of 9mm ammunition.
Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest,
(4) fine principal, (5) fine interest, (6) community restitution, (7) penalties, and (8) costs, including cost of
prosecution and court costs.

A-3

1

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
MIAMI DIVISION

1
2
3

UNITED STATES OF AMERICA,

4

Plaintiff,
v.

5
6
7

CARLOS MIGUEL PEREZ,
Defendant.

)
)
)
)
)
)
)
)
)
)

Case Number
1:18-cr-20359-RNS

8
9
Transcript of the jury trial - Volume I
10
before the Honorable Robert N. Scola
11
July 23, 2018; 9:01 a.m.
12
Miami, Florida
13
14

Appearances:

15

For the Plaintiff: JOSHUA S. ROTHSTEIN
YENEY HERNANDEZ
Assistant U.S. Attorneys
99 Northeast 4th Street
Miami, Florida 33132

16
17
18
19
20

For the Defendant: ANTHONY J. NATALE
Assistant Federal Public Defender
150 West Flagler Street, Suite 1500
Miami, Florida 33130

21
22

P r o c e e d i n g s r e c o r d e d b y m e c h a n i c a l s t e n o g r a p h y,
t r a n s c r i p t p r o d u c e d b y c o m p u t e r.

23
Diane Peede, RMR, CRR, CRC
24
25

Federal Official Court Reporter
4 0 0 N o r t h M i a m i A v e n u e, E i g h t h F l o o r
M i a m i, F l o r i d a
33128

194

This one.

Right.

When you say it's a fake wall, it was

1

Q

2

a wall?

3

originally put there?

4

A

It was not supposed to be there.

5

Q

But it was there?

6

A

Yes, sir.

7

Q

And when you would come in the door, the bedroom was

8

right here; wouldn't you agree?

9

A

Yes, sir.

10

Q

Okay.

11

right?

12

A

Yes, sir.

13

Q

And you found the gun in a bedroom over here, right?

14

A

The actual wall -- from your drawing, the actual wall,

15

the door would be right there.

16

Q

17

me where it would be, where the bedroom was.

18

A

That would be the wall right there.

19

Q

That would be the wall.

20

that one out.

It just wasn't stand-up equipment?

Okay.

It wasn't

And that's where you found all of this stuff,

I'll tell you what.

Let me clear it.

You tell

So we'll take -- we'll scratch

That's the wall, this is one apartment, this is the

21
22

other, right?

23

A

Yeah.

24

Q

And the bedroom would be?

25

A

It's just one small room right here.

195

1

Q

It's just -- that's all it is is just one small room?

2

A

It doesn't have a bathroom.

3

Q

It doesn't have anything.

4

get into that room would be through the outside door?

5

A

6

over, you would do it from the inside by the window area.

7

Q

8

it was a six-inch gap, right?

9

A

About.

10

Q

About?

11

A

Yeah.

12

Q

You would have to go to the outside to physically get in

13

there?

14

A

Yes, sir.

15

Q

Now, one of the things that went on was when you did the

16

search warrant, one of the things necessary was to knock out

17

the security cameras, right?

18

A

19

would have to ask them.

20

Q

21

photographs of that?

22

A

Yes.

23

Q

Okay.

24
25

It doesn't have a kitchen.

But the only way to really

Through the outside or if you wanted to hand something

Okay.

But to actually physically get in there, you said

You would have to go through the outside.

That wasn't me.

That's part of the SWAT team.

You

Would it refresh your recollection if you saw some

MR. NATALE:

Your Honor, just to see if this

refreshes his recollection.

A-4

Case 1:18-cr-20359-RNS Document 36 Entered on FLSD Docket 07/24/2018 Page 1 of 18

United States DistrictCourt
for the
Southern D istrict ofFlorida
U nited States ofAm erica,
Plaintiff,

r//?-: l

Crim inalCase No. 18-2035 -CR-Sco1a

V.
Carlos M iguelPerez,
Defendant.

CO URT'S INSTRUCTIO NS TO TH E JURY

M em bers ofthe Jury:
lt is m y duty to instruct you on the rules of 1aw that you m ust use in
deciding this case. After I have com pleted these instructions,you willgo to the

jury room and begin your discussions- whatwe callyourdeliberations.
You m ust decide w hether the G overnm ent has proved the specific facts

necessazy to find the Defendantguilty beyond a reasonable doubt.
.

Your decision m ust be based only on the evidence presented here. You

m ustnotbe influenced in any way by either sym pathy foror prejudice against
the Defendantor the G overnm ent.

You m ustfollow the law as lexplain it- even ifyou do not agree with the
law - and you m ust follow a11 of m y instructions as a w hole. You m ust not
single out or disregard any ofthe Court's instructions on the law .
The indictm ent or form al charge against a defendant is not evidence of
guilt. The 1aw presum es every defendant is innocent. The Defendant does not

A,J

have to prove *

innocence or produce any evidence at all. The Governm ent

Case 1:18-cr-20359-RNS Document 36 Entered on FLSD Docket 07/24/2018 Page 2 of 18

m ustprove guilt beyond a reasonable doubt. lfit fails to do so,you m ust find
the Defendantnotguilty.
Your decision m ust be ase on y on

'e

e during the

trial. You m ust not be influenced in any way by either sym

y for or

prejudice a instthe Defendantorthe Governm ent
You m ust fo

w the 1aw as lexpla' lt- even ifyou do not agree with the

1aw - and you m ust follo
single out or disregard

a11

y ofthe

m y instructions as a w hole. You m ust not
rt's instn zctions on the law .

The in ' m ent or form al charge again

D efendant is not evidence of

gui . The 1aw presum es every D efendant is innocent. The

have to prove his innocence or produce any evidence at all.

dant does not

Defendant does

not have to testify, and if the Defendant chose not to testify, you cannot
consider that in any way while m aking your decision. The G overnm ent m ust
prove guilt beyond a reasonable doubt. If it fails to do so,you m ust find the
Defendantnotguilty.
The G overnm ent's burden of proofis heavy,but it does not have to prove
a Defendant's guilt beyond a11 possible doubt. The Governm ent's proof only

has to exclude any ttreasonable doubt'concerning the D efendant's guilt.
A ffreasonable doubt''is a realdoubt,based on your reason and com m on
sense after you have carefully and im partially considered a11the evidence in the
Case.

ttproof beyond a reasonable doubt''is proofso convincing thatyou would
be w illing to rely and act on itw ithouthesitation in the m ostim portant ofyour

2

Case 1:18-cr-20359-RNS Document 36 Entered on FLSD Docket 07/24/2018 Page 3 of 18

ow n affairs. If you are convinced that the Defendant has been proved guilty
beyond a reasonable doubt,say so. Ifyou are notconvinced,say so.
As I said before, you m ust consider only the evidence that I have
adm itted in the case. Evidence includes the testim ony of w itnesses and the

exhibits adm itted.But, anything the lawyers say is not evidence and is not
binding on you.
You should not assum e from anything I have said that I have any
opinion about any factualissue in this case.Exceptfor m y instructions to you

on the law , you should disregard anything I m ay have said during the trialin
arriving atyour ow n decision about the facts.
Your own recollection and interpretation ofthe evidence is whatm atters.

ln considering the evidence you m ay use reasoning and com m on sense to
m ake deductions and reach conclusions. You should not be concerned about
w hether the evidence is director circum stantial.
dDirectevidence''is the testim ony ofa person who asserts that he or she
has actualknow ledge ofa fact,such as an eyew itness.
Gcircum stantialevidence''is proof of a chain of facts and circum stances
that tend to prove or disprove a fact. There is no legaldifference in the weight
you m ay give to either director circum stantialevidence.
W hen 1 say you m ust consider a11 the evidence,1 do not m ean thatyou

m ust accept a11 the evidence as true or accurate. You should decide whether
you believe w hat each w itness had to say,and how im portant that testim ony
was. In m aking that decision you m ay believe or disbelieve any w itness, in

3

Case 1:18-cr-20359-RNS Document 36 Entered on FLSD Docket 07/24/2018 Page 4 of 18

w hole or in part. The num ber of w itnesses testifying concerning a particular
pointdoes not necessarily m atter.
To decide w hether you believe any w itness I suggest that you ask
yourselfa few questions'
.
Did the w itness im press you as one w ho was telling the truth?
Did the witness have any particular reason not to tellthe truth?

* Did the w itness have a personal interest in the outcom e of the
case?
Did the witness seem to have a good m em ory?

*

D id the w itness have the opportunity and ability to accurately
observe the things he or she testified about?
Did the w itness appear to understand the questions clearly and
answ er them directly?

D id the w itness's testim ony differ from other testim ony or other
evidence?
'

W as

e witness

'

?

You should also ask yourselfw hether there w as evidence that a witness

testified falsely about an im portant fact. And ask w hether there w as evidence
that at som e other tim e a w itness said or did som ething, or did not say or do
som ething,that w as different from the testim ony the w itness gave during this
trial.

Butkeep in m ind thata sim ple m istake does notm ean a w itness w as not
telling the tnzth as he or she rem em bers it. People naturally tend to forget
som e things or rem em ber them inaccurately. So, if a witness m isstated

4

Case 1:18-cr-20359-RNS Document 36 Entered on FLSD Docket 07/24/2018 Page 5 of 18

som ething,you m ust decide w hether it w as because of an innocent lapse in
m em ory or an intentional deception. The significance of your decision m ay

depend on w hether the m isstatem ent is about an im portant fact or about an
unim portant detail.

W hen scientific,technicalor other specialized know ledge m ightbe
helpful,a person w ho has specialtraining or experience in thatfield is allow ed
to state an opinion about the m atter.

But that doesn't m ean you m ust accept the w itness's opinion.As with
any other w itness's testim ony, you m ust decide for yourself w hether to rely
upon the opinion.

The Governm ent m ust prove beyond a reasonable doubt that the
Defendantw as the person w ho com m itted the crim e.
If a w itness identifies a Defendant as the person w ho com m itted the

crim e,you m ust decide w hether the witness is telling the truth.But even ifyou
believe the w itness is telling the truth,you m ust still decide how accurate the
identification is.Isuggestthatyou ask yourselfquestions:

1. Did the witness have an adequate opportunity to observe the
person at the tim e the crim e w as com m itted?
2.H ow m uch tim e did the witness have to observe the person?
3.How close w as the w itness?
4.D id anything affectthe witness's ability to see?
5.D id the w itness know or see the person at an earlier tim e?

5

Case 1:18-cr-20359-RNS Document 36 Entered on FLSD Docket 07/24/2018 Page 6 of 18

You m ay also consider the circum stances of the identification of the
Defendant, such as the way the Defendant w as presented to the witness for

identification and the length oftim e betw een the crim e and the identification of
the Defendant.

After exam ining a11the evidence,ifyou have a reasonable doubt that the
Defendant was the person who com m itted the crim e, you m ust find the

Defendant not guilty.
During the trial, you heard evidence of acts allegedly done by the
D efendant on other occasions that m ay be sim ilar to acts w ith which the
D efendant is currently charged. You m ust notconsider any of this evidence to

decide w hether the Defendant engaged in the activity alleged in the indictm ent.
This evidence is adm itted and m ay be considered by you for the lim ited
purpose ofassisting you in determ ining w hether the Defendant had the state of

m ind or intent necessary to com m it the crim e charged in the indictm ent, the
Defendant had a m otive or the opportunity to com m it the acts charged in the
indictm ent, the Defendant com m itted the acts charged in the indictm ent by
accident or m istake.

6

Case 1:18-cr-20359-RNS Document 36 Entered on FLSD Docket 07/24/2018 Page 7 of 18

Possession
The law recognizes several kinds of possession. A person m ay have

actual possession, constnzctive possession, sole possession, or joint
possession.

dActual possession'' of a thing occurs if a person know ingly has direct
physicalcontrolofit.
Gconstructive possession'
' of a thing occurs if a person doesn't have
actual possession of it, but has both the pow er and the intention to take
controlover itlater.
ftsole possession'
'of a thing occurs if a person is the only one to possess
'
1t.

U oint possession' of a thing occurs if tw o or m ore people share
possession ofit.
The term
possession.

f
ïpossession'' includes actual, constructive, sole, and joint

Case 1:18-cr-20359-RNS Document 36 Entered on FLSD Docket 07/24/2018 Page 8 of 18

Introduction to the O ffense Instructions
The Indictm ent charges 5 separate crim es, called dcountsy' against the
Defendant. Each count has a num ber.You'llbe given a copy ofthe indictm ent
to refer to during your deliberations.
Count 1 charges thatthe D efendantdid know ingly and w illfully com bine,
conspire, confederate,and agree w ith other persons know n and unknown to
the G rand Jury,to possess with the intentto distribute a controlled substance,
in violation of Title 2 1, United States Code, Section 846. The controlled
substance involved in the conspiracy attributable to the D efendant as a result
of his own conduct, and the conduct of other conspirators reasonably
foreseeable to him ,is 28 gram s or m ore ofa m ixture and substance containing
a detectable am ount ofcocaine base,com m only referred to as t'crack cocaine,a
Schedule 11 controlled substance, in violation of Title 2 1, United States Code,

Section 841(b)(1)(B)(iii). lw illalso give you specific instn zctions on conspiracy.
C ou nt 2 charges that the D efendant did know ingly and intentionally

possess with intent to distribute a controlled substance,in violation ofTitle 2 1,

United States Code,Section 84 1(a)(1),and Title 18,United States Code,Section
2. Pursuant to Title 21, United States Code, Section 841(b)(1)(B)(iii), it is
further alleged that this violation involved 28 gram s or m ore of a m ixture and
substance containing a detectable am oun t of cocaine base, com m only referred

to as dcrack cocaine,''a Schedule 11controlled substance.
Count 3 charges that the D efendant did know ingly possess a firearm in
furtherance ofa drug trafficking crim e,a felony offense for which the defendant

8

Case 1:18-cr-20359-RNS Document 36 Entered on FLSD Docket 07/24/2018 Page 9 of 18

m ay be prosecuted in a court of the United States,that is,a violation of Title

21, United States Code, Section 841(a)(1), as charged in Count 2 of this

Indictm ent,in violation ofTitle 18,United States Code,Sections 924(c)(1)(A)(i)
and 2.
Count 4 charges that the Defendant did know ingly and intentionally
lease,rent,use and m aintain a place,thatis,the prem ises located at 1500 SW

6th Street, M iam i, Florida 33135, for the purpose of distributing a controlled
substance,that is,cocaine base,com m only referred to as tïcrack cocaine,''in

violation ofTitle 21,United States Code,Section 856(a)(1)and Title 18,United
States Code,Section 2.

Count 5 charges that the D efendant,having been previously convicted of
a crim e punishable by im prisonm ent for a term exceeding one year, did
know ingly possess a firearm and am m unition in and affecting interstate and
foreign com m erce, in violation of Title 18, United States Code, Section

922(g)(1).

Case 1:18-cr-20359-RNS Document 36 Entered on FLSD Docket 07/24/2018 Page 10 of 18

Controlled Substances
Conspiracy
It's a separate Federalcrim e for anyone to conspire to know ingly possess
with intentto distribute crack cocaine.

Title 21 United States Code Section 84 1(a)(1)m akes ita crim e foranyone
to know ingly possess crack cocaine w ith intent to distribute it.
A 'ïconspiracy'' is an agreem ent by tw o or m ore persons to com m it an
unlawful act.In other w ords,it is a kind of partnership for crim inal purposes.
Every m em ber of the conspiracy becom es the agent or partner of every other
m em ber.
The G overnm ent does not have to prove that a11 of the people nam ed in

the indictm ent w ere m em bers of the plan, or that those w ho w ere m em bers

m ade any kind ofform alagreem ent.The heartofa conspiraey is the m aking of
the unlaw ful plan itself, so the G overnm ent does not have to prove that the
conspirators succeeded in carrying outthe plan.
The Defendant can be found guilty only if a11 the follow ing facts are
proved beyond a reasonable doubt;

(1)two or m ore people in som e way agreed to tr.
y to accom plish a
shared and unlaw fulplan to possess crack cocaine;

(2) the Defendant, knew the unlawful purpose of the plan and
willfullyjoined in it;and

(3)the objectofthe unlawfulplan was to possess with the intentto
distribute 28 gram s or m ore of a m ixture and substance
containing a detectable am ount of cocaine base, com m only
referred to as ïtcrack cocaine.''

10

Case 1:18-cr-20359-RNS Document 36 Entered on FLSD Docket 07/24/2018 Page 11 of 18

A person m ay be a conspirator even w ithout know ing a11the details ofthe
unlaw fulplan or the nam es and identities ofa11the other alleged conspirators.
If the D efendant played only a m inor part in the plan but had a general

understanding ofthe unlawfulpurpose ofthe plan - and willfully joined in the
plan on at least one occasion - that's sufficientfor you to find the Defendant
litliltJr.
But sim ply being present at the scene ofan event or m erely associating

with certain people and discussing com m on goals and interests doesn't
establish proof of a conspiracy. Also a person who doesn't know about a

conspiracy but happens to act in a w ay that advances som e purpose of one
doesn'tautom atically becom e a conspirator.
The Defendant is charged w ith possessing and intending to distribute at
least 28 gram s of crack cocaine. Butyou m ay find the Defendant guilty of the
crim e even if the am ount of the controlled substance for which he should be
held responsible is less than 28 gram s. So ifyou find the Defendant guilty,you
m ust also unanim ously agree on the w eight of crack cocaine the D efendant
possessed and specify the am ounton the verdict form .

Case 1:18-cr-20359-RNS Document 36 Entered on FLSD Docket 07/24/2018 Page 12 of 18

Controlled Substanees
Possesslon w ith Intent to Distribute
It's a Federal crim e for anyone to possess a controlled substance w ith
intentto distribute it.
Cocaine base, com m only referred to as ftcrack cocaine'' is a ddcontrolled
substance.''

The D efendant can be found guilty ofthis crim e only if a11 the follow ing
facts are proved beyond a reasonable doubt:

(1)the Defendantknowingly possessed crack cocaine;
(2)the Defendantintended to distribute the crack cocaine;and
(3)the weight ofthe crack cocaine the Defendant possessed was
m ore than 28 gram s.

To Gintend to distribute''is to plan to deliver possession of a controlled
substance to som eone else,even ifnothing ofvalue is exchanged.

The D efendant is charged with possessing and intending to distribute at
least 28 gram s ofcrack cocaine. Butyou m ay find the D efendant guilty of the
crim e even if the am ount of the controlled substance for w hich he should be
held responsible is less than 28 gram s. So ifyou find the D efendant guilty,you
m ust also unanim ously agree on the w eight of cocaine base the Defendant
possessed and specify the am ounton the verdictform .

Case 1:18-cr-20359-RNS Document 36 Entered on FLSD Docket 07/24/2018 Page 13 of 18

Possessing a Firearm in Furtherance ofa
z
'm e o Drug-Tram cking Crim e
It's a separate Federalcrim e to possess a firearm in furtherance ofa

drug-trafficking crim e.
The Defendant can be found guilty of this crim e only if a11 the
follow ing facts are proved beyond a reasonable doubt:

(1)that the Defendant com m itted the drug-trafficking crim e
charged in CountTwo ofthe indictm ent;and

(2)that the Defendant knowingly possessed a firearm

in

furtherance ofthat crim e,as charged in the indictm ent.

A 'tfirearm ''is any w eapon designed to or readily convertible to expela

projectile by the action ofan explosive.The term includes the fram e orreceiver
ofany such w eapon or any firearm m uffler or silencer.
To ''possess''a firearm is to have directphysicalcontrolofthe firearm or
to have knowledge of the firearm 's presence and the ability and intent to
later exercise controlover the firearm .

Possessing a firearm tfin furtherance of'a crim e m eans that the firearm
helped,prom oted,or advanced the crim e in som e way.

13

Case 1:18-cr-20359-RNS Document 36 Entered on FLSD Docket 07/24/2018 Page 14 of 18

M aintaining Drug-lnvolved Prem ises
It's a federal crim e to know ingly m aintain any place for the purpose of
m anufacturing,distributing,or using any controlled substance.

The D efendant can be found guilty ofthis crim e only ifa11 the following
facts are proved beyond a reasonable doubt:

(1)The Defendant opened, leased, rented, used, or m aintained any
place,either perm anently or tem porarily;and

(2)The Defendantdid so knowingly;and
(3)The Defendantdid so forthe purpose ofm anufacturing,distributing,
or using any controlled substance.

You are instructed that,as a m atter oflaw ,crack cocaine is a controlled
substance as thatterm is used in these instructions and in the indictm ent and

the statute 1justread to you.You m ust,ofcourse,determ ine whetherornot
the substance in question was,in factcrack cocaine.

W here the tfplace''in question is a residence,the defendant m usthave a
substantialconnection to the hom e and m ustbe m ore than a casualvisitor.

H ow ever,it is not necessary that the defendant lease or own the ftplace.''Acts
thatevidence ffm aintenance'
'are such m atters as control,duration,acquisition
ofthe site,renting or furnishing the site,repairing the site,supervising,
protecting,supplying food to those atthe site,and continuity.
d
tFor the purpose of'nm eans a significantor im portant reason.

Case 1:18-cr-20359-RNS Document 36 Entered on FLSD Docket 07/24/2018 Page 15 of 18

Possession ofa Firearm or Am m unition by a Convicted Felon
It's a Federalcrim e for anyone w ho has been convicted ofa felony offense
to possess a firearm or am m unition in or affecting interstate or foreign
CODADACrCC.

The D efendant can be found guilty ofthis crim e only ifa1l the follow ing

facts are proved beyond a reasonable doubt:

(1)the Defendantknowingly possessed a firearm oram m unition in
or affecting interstate or foreign com m erce;and

(2)before possessing the firearm or am m unition,the Defendant
had been convicted ofa felony - a crim e punishable by
im prisonm ent for m ore than one year.

A ttfirearm '' is any weapon designed to or readily convertible to expel a

projectile by the action ofan explosive.The term includes the fram e or receiver
ofany such weapon or any firearm m uffler or silencer.
The term d'am m unition''m eans am m unition or cartridge cases, prim ers,
bullets,or propellant pow der designed for use in any firearm .
The term ftinterstate or foreign com m erce'' includes the m ovem ent of a

firearm from one state to another or between the United States and any foreign
cou ntry. lt's not necessary for the G overnm ent to prove that the Defendant

knew the firearm had m oved from one state to another,only that the firearm
did,in fact,m ove from one state to another.

Case 1:18-cr-20359-RNS Document 36 Entered on FLSD Docket 07/24/2018 Page 16 of 18

You'll see that the indictm ent charges that a crim e was com m itted tton or
about' a certain date. The G overnm ent doesn'
t have to prove that the crim e

occurred on an exact date. The G overnm ent only has to prove beyond a
reasonable doubt that the crim e w as com m itted on a date reasonably close to
the date alleged.
The w ord tfknow ingly'' m eans that an act w as done voluntarily and
intentionally and notbecause ofa m istake or by accident.

The word d'willfull/'m eans that the act was com m itted voluntarily and
purposely,with the intent to do som ething the 1aw forbids;thatis,with the bad
purpose to disobey or disregard the law .W hile a person m ust have acted with
the intent to do som ething the 1aw forbids before you can find that the person
acted d
tw illfullyj' the person need not be aware ofthe specific 1aw or rule that
his conductm ay be violating.
Each count of the indictm ent charges a separate crim e. You m ust

consider each crim e and the evidence relating to it separately. If you find the
D efendant guilt.y or notguilty ofone crim e,that m ustnotaffectyour verdictfor
any other crim e.

1 caution you that the Defendant is on trial onlv for the specific crim es
charged in the indictm ent.You're here to determ ine from the evidence in this
case whether the Defendantis guilt.y or not guilty ofthose specific crim es.
You m ust never consider punishm ent in any way to decide w hether the
Defendant is guilty.Ifyou find the D efendant guilty,the punishm ent is for the
Judge alone to decide later.

16

Case 1:18-cr-20359-RNS Document 36 Entered on FLSD Docket 07/24/2018 Page 17 of 18

You have been perm itted to take notes during the trial. M ost of you perhaps a11ofyou - have taken advantage ofthatopportunity.
You m ust use your notes only as a m em ory aid during deliberations.
You m ust not give your notes priority over your independentrecollection of the

evidence. And you m ust not allow yourself to be unduly influenced by the

notes ofotherjurors.
I em phasize that notes are not entitled to any greater weight than your

m em ories or im pressions aboutthe testim ony.

Your verdict,w hether guilty or not guilty,m ustbe unanim ous - in other
w ords,you m ust a11agree.Your deliberations are secret,and youQlnever have
to explain your verdict to anyone.

Each of you m ust decide the case for yourself, but only after fully

considering the evidence with the otherjurors.So you m ust discuss the case
to reach an agreem ent.W hile you're discussing the
with one another and try
.
case, don't hesitate to reexam ine your ow n opinion and change your m ind if
you becom e convinced that you w ere wrong. But don't give up your honest

beliefsjustbecause others think differently or because you sim ply wantto get
the case over w ith .

Rem em ber that,in a very realway,you're judges - judges of the facts.
Your only interest is to seek the truth from the evidence in the case.

W hen you get to the juzy room ,choose one ofyour m em bers to act as
foreperson. The foreperson w illdirectyour deliberations and w illspeak for you
in court.

Case 1:18-cr-20359-RNS Document 36 Entered on FLSD Docket 07/24/2018 Page 18 of 18

A verdict form has been prepared for your convenience.

Take the verdict form with you to the jury room . W hen you have all
agreed on the verdict,your foreperson m ust fillin the form ,sign it,date it,and
carry it. Then you w illreturn it to the courtroom .
Ifyou w ish to com m unicate w ith m e at any tim e,please w rite down your
m essage or question and give it to the court security officer.The court security
office w ill bring it to m e and Iw ill respond as prom ptly as possible - either in
w riting or by talking to you in the courtroom .But I caution you not to tellm e

how m anyjurors have voted one way orthe other atthattim e.

A-5

Case 1:18-cr-20359-RNS Document 1 Entered on FLSD Docket 05/02/2018 Page 1 of 8
TB
May 1, 2018

U M TED STA TE S D ISTR ICT CO U R T
SO U TH ER N D ISTR ICT O F FLO RID A

18-20359-CR-SCOLA/TORRES
C A SE N O .

21U.S.C.b846
21U.S.C.j841(a)(1)
18U.S.C.j924(c)(1)(A)(i)
21U.S.C.j856(a)(1)
18U.S.C.j922(g)(1)
18U.S.C.j924(d)(1)
U NITED STA TE S O F AM ER ICA
V.

CAR T,O S M IG U EL PER EZ,
D efendant.

/
IND IC TM ENT

The Grand Jlzry charges that:
c o gx T l
Conspiracy to PossessW ith Intent to D istribute Controlled Substances

(21U.S.C.j846)
h on or
Beginning atleastas early as on oraboutFebruary 1,2018,and continuing throug,
aboutM arch 1,2018,'in M iam i-Dade County,in the Southern D isG ctofFlodda,the defendant,
C AR I.
'O S M IG U EL PEREZ ,

did u owingly and willfttlly combine,conspire,confederate,and agreewith otherpersonslm own
and llnknow n to the Grand Juty to possessw ith the intentto distribute a controlled substance,in
violation ofTitle 21,United StatesCode,Section 846.
The controlled substance involved in the conspiracy attributable to C AR T,O S M IG UEL

PEVEZ as a result of llis own conduct,and the conduct of other conspirators reasonably

Case 1:18-cr-20359-RNS Document 1 Entered on FLSD Docket 05/02/2018 Page 2 of 8

foreseeabletohim ,is28 gram sormoreofam ixtureand substancecontainingadetectableam ount
of cocaine base,com m only referred to as ttcrack cocaine,a Schedule 11 controlled substance,in
f

violation ofTitle21,UnitedStatesCode,Section 841(b)(1)(B)(iii).
C O UN T 2
Possession W ith Intentto D istributeA Controlled Substance

(21U.S.C.j841(a)(1))
On or about M arch 1,2018,in M iam i-Dade County,in the Southern Distlict of Flodda,
the defendant,
CAR LO S NH GU EL PE REZ,

did u ow ingly and intentionally possess w ith intent to distribute a conkolled substance, in

violation ofTitle21,United StatesCode,Section 841(a)(1),and Title 18,United StatesCode,
Section 2.

PlzrsuanttoTitle21,UnitedStatesCode,Section841(b)(1)(B)(iii),itisf.
urtherallegedthat
tlzis violation involved 28 grams or m ore of a m ixture and substance contairling a detectable
am ount of cocaine base, com m only referred to as GGcrack cocaine,''a Schedule 11 controlled
substance.
C OU N T 3
Possession ofa Firearm in Furtherance ofa D rug Trafficking C rim e

(18U.S.C.j924(c)(1)(A)(i))
On or about M arch 1,2018,in M iam i-Dade Cotm ty,in the Southern District of Florida,

the defendant,

CART,OSM IGUEL PEREA
did know ingly possess a firearm in furtherance of a drug traftk king crim e,a felony offense for
which the defendantm ay be prosecuted in a colzrtofthe U rlited States,thatis,a violation ofTitle

Case 1:18-cr-20359-RNS Document 1 Entered on FLSD Docket 05/02/2018 Page 3 of 8

21,UnitedStatesCode,Section841(a)(1),aschargedinCount2ofthisIndictment,inviotation
ofTitle18,UnitedStatesCode,Sections924(c)(l)(A)(i)and2.
C O U NT 4
M aintaining a Drug-lnvolved Prem ises

(21U.S.C.j856(a)(1))
Beginning atleastasearlyasonoraboutFebruary 1,201à,andcontinuingtluough on or
aboutMarch 1,2018,inM iami-DadeCotmty,'
intheSouthem DiséictofFlorida,thedefendant,
CA RL O S M IG UEL PER EZ ,
did know ingly and intentionally lease,rent,use and m aintain aplace,thatis,theprem ises located
at 1500 SW 6th Street, M iam i, Florida 33135, for the ptupose of distributing a conkolled
substance,thatis,cocaine base,com m only referred to as GGcrack cocaine,''in violation ofTitle 21,

UrlitedStatesCode,Section 856(a)(1)andTitle18,UnitedStatesCode,Section2.
C O UN T 5
Felon in Possession of a Firearm

(18U.S.C.j922(g)(1))
On oraboutM arch 1,2018,in M iami-Dade Cotmty,in the Southern DistrictofFlodda,
the defendant,
C ART,O S M IGU EL PE REZ ,
y'

having been previously convicted ofa crim e punishable by im prisonm ent for a tel'm exceeding
one year,did lœ ow ingly possessa firearm and am m lm ition in and affecting interstate and foreign

commerce,inviolationofTitle18,UnitedStatesCode,Section922(g)(1).
FO RFEITU RE AT,LE GA TIO N S
.

The allegations of tlzis Indictm ent are re-alleged and by this reference fully

incop orated herein forthepurpose ofalleging forfeitureto theUnited StatesofAm erica ofcertain
property in which the defendant,CAR T,O S M IG U EL PE REZ ,hasan interest.

Case 1:18-cr-20359-RNS Document 1 Entered on FLSD Docket 05/02/2018 Page 4 of 8

2.

UponconvictionofanyviolationofTitle18,UnitedStatesCode,Section922(g)(1)

orTitle18,UnitedStatesCode,Section924(c)(1)(A)(i)oranyothercdminalviolation asalleged
in this Indictm ent,the defendant shall forfeit to the U nited States any firearm or am m unition

involved in or used in any such violation,pursuantto Title 18,United States Code,Section

924(d)(1).
3.

Upon conviction ofaviolationofTitle21,United StatesCode,Section 846 orTitle

21,United StatesCode,Section 841(a)(1)asallegedintlzisIndictment,thedefendantshallforfeit
to the U nited States any property constituting or derived from any proceeds obtained,directly or
indirectly asaresultofsuch violation and anyproperty used,orintended to beused,in any m anner
orpart,to com m itorto facilitate such'
violation,pursuantto Title 21,U nited States Code,Section
853.

Thepropertysubjectto forfeitureincludes,butisnotlimitedto:

a.

One(1)Gloct 19,9MM,semi-automaticpistol(sedalnumberW CP530);
and

Ten (10)roundsof9M M ammtmition.

Case 1:18-cr-20359-RNS Document 1 Entered on FLSD Docket 05/02/2018 Page 5 of 8

A11pursuanttoTitle18,UnitedStatesCode,Section924(d)(1)andTitle21,UnitedStates
Code,Section 853.
A TRU E BILL

î
BEN JA M W G .G REEN BERG
UN ITED STA TES A TTORN EY

J HU A S.R OTH STEIN
A SSISTA N T U N ITED STA TES A TTORN EY

Case 1:18-cr-20359-RNS Document 1 Entered on FLSD Docket 05/02/2018 Page 6 of 8
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
UM TED STATES O F AM ERICA

CASE NO.

V.

CERTIFICATE O F TRIAL ATTO RNEY.
CARLO S M IGUEL PEREZ

lant.

oefen

/

CourtDivision:(sel
ectone)

V Miami
FTL

Superseding Case Inform ation:

N umberofN ew Defendants
Totalnumberofcounts

KeyWest
W PB

/

ves

New Defendantts)

xoH

FTP

Ido hereby certify that:

1f
havecarefullyconsideredtheallegationsofJheindictmept,thenumberotdefendants?thenumber
o probablewitnessesandthele/alcomplexitlesofthelndlctment/lnformatlonattachedhereto.

1am aFarethattheinformation suppliedolj
lthisstqtementwillbereliedupon bytheJudgesofthis
Courtln settingtheircalendarsandschedullngcrimlnaltrialsunderthemandateoftheSpeedyTrial
Act,Tltle28U.S.C.Section 3161.

Intepreter:

(YesqrNo)

Yes

Listlanguage and/ordlalect

spani
sh

Thiscasewilltake

daysforthe partiesto tl'
y.

3.
.4

Please check appropriatecategory and typeofoffenselisted below :
(Checkonlyone)

1
11
l1I
IV
V

0 to 5 days
6 to 10 days
11 to 20 days
-21to 60 days
61daysand over

(Checkonlyone)

7

Pe
M py
lnor
M isdem.
Felony

6.
Hasthiscasebeenpreviouslyfiled inthisDistrictCourt? (YesorNo) MN
lfyes:
Judge:
CaseN o.

(Attachcopygfdispositiveordel)

Hasacomplalntbeen filed in thlsmatter?

lfyej:
M aglstrate CaseNo.
RelatedM isclllaneousnumbers:

(YesorNo)

No

Defendantts)lnfederalcustodyasof
Defendantts)lnstatecpstodyasof
Rule20 from theDistnctof
Isthisapotentialdeathpenaltycase?(YesorNo)

Dp
p
rlo
er
sto
hi
Oc
sct
aosb
eeo
rr1
i$in2a0
te
03
fr
2omama
Yett
ser ' inNo
the é RegionoftheU.S.Attorney'sOffice

J HUA S ROTH STEIN

*penaltySheetts)attached

AsslsnwN'fUM TED STATES
Coul'
tI.
D .N o.A5502111

ILE!SI4/8/08

Case 1:18-cr-20359-RNS Document 1 Entered on FLSD Docket 05/02/2018 Page 7 of 8

UN ITED STA TES DISTRIC T CO UR T
SO U TH ER N D ISTRIC T O F FL O RID A
PEN AL TY SH EET

D efendant'sN am e: CA RLO S M IGUEL PEREZ
C ase N o:

Cotmt#:1
Conspiracy to Possessw ith the Intentto D istdbute Controlled Substances
Title 21,United States Code,Section 846
*M ax.Penalty: Life Im prisonm ent
Cotmt#:2
Possession w ith Intentto D istribute a Controlled Substance

Title21,UnitedStatesCode,Section 841(a)(1)
*M ax.Penalty: Life lm prisonm ent
Colm t#:3
Possession ofa Firearm in Furtherance ofa Drug Trafficldng Cdm e

Title18,UnitedStatesCode,Section924(c)(1)(A)(i)
*M ax.Penalty: Life Im pdsonm ent
Colm t#:4
M aintaining a Dnzg-lnvolved Prem ises

Title21,United StatesCode,Section856(a)(1)
*M ax.Penalty: 20 Years'Im prisonm ent

-

Case 1:18-cr-20359-RNS Document 1 Entered on FLSD Docket 05/02/2018 Page 8 of 8

UM TED STA TES D ISTR IC T CO U R T
SO U TH ER N D ISTR ICT O F FL O RID A

PENALTY SHEET (contz
Count#:5
Possession ofa Firearm and Am m llnition by a Convicted Felon

Title18,UnitedStatesCode,Section 922(g)(1)
*M ax.Penalty: 10 Y ears'Im pdsonm ent

*R efers only to possible term ofincarceration,doesnotinclude possible fines,restitutiom
specialassessm ents,parole term s,or forfeituresthatm ay be applicable.

